                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A08110062                                                         11          Page 1 of 1



             In our proactive review of an award1 for appropriate use of participant support funds, we
     identified travel expenses for a universit9 employee (the PI^) charged to participant support for
     travel occurring five months after the workshop for which NSF awarded the funds. We
     determined through our investigation that the PI'S subsequent travel was related to the purpose of
     the award and a continuation of workshop activities. The PI'S proposed budget and his project
     description failed to clearly indicate that the subsequent activities would necessitate a trip which
     he would charge the NSF award.

             Although no one had documentation of the requisite approval for the reallocation of
     funds, the NSF program officer4reported that she either had approved the travel verbally or
     would have approved had the request been made appropriately through FastLane. We have
     suggested to the university that its PIS be advised to ensure that their proposals accurately reflect
     their intended use of funds and its grants administration staff review the situations that require
     prior written approvals from NSF.

            Accordingly, this case is closed.
